Memorandum from the Office of the Inspector General



September 20, 2012

Leslie C. Bazzoon, WT 9C-K
Elliott C. Flick III, LP 3K-C

REQUEST FOR FINAL ACTION – INSPECTION 2009-12883 – SURVEY OF TVA’S
PROCESS FOR DETERMINING CONDITION OF ASSETS



With the age of Tennessee Valley Authority (TVA) generating assets, the need to
understand the condition of those assets and use that information to effectively plan is
crucial to TVA. As a result, we initiated a review to determine how TVA (1) assesses the
condition of electric assets and (2) uses that information in planning. However, the scope
of this review did not include assessing the condition of TVA assets. The organizations
we reviewed included Nuclear Power Group (NPG), Fossil Power Group (FPG), Energy
Delivery, and River Operations (RO).

We found the condition of assets is identified through system, program, and component1
health assessments. While all the organizations we reviewed use health assessments,
the process varies among the organizations. We also found the condition of assets
information is used by TVA for planning purposes. According to processes and interviews,
all of the organizations we reviewed use asset condition information to identify corrective
actions when necessary. RO personnel stated that they take actions to address any
system with poor ratings even though the RO process, RO-SPP-09.21, System and
Component Health Program, does not specifically include the requirement, as the other
organizations do. The condition of assets information is also used by (1) the organizations
to develop and prioritize projects for business planning purposes and (2) System Planning
for future costs. In addition, TVA has instituted a Capital Productivity Initiative2 to improve
management of capital and operations and maintenance (O&M) projects to capture
savings. As part of the new initiative, projects will be reviewed by a Project Review Board,
and the condition of assets information could be a factor for consideration in its project
reviews.




1
    An example of a system health assessment would be a feedwater system that would include evaluating the
    pumps, piping, valves, controls, and some electrical items that take the water from the condenser to the
    boiler. A program health assessment evaluates a specific area, such as fire protection. A component
    health assessment evaluates similar items (e.g., pumps) across multiple systems.
2
    The Capital Productivity Initiative has only recently been implemented. We did not assess the
    effectiveness of the initiative.
Lesslie C. Bazzo oon
Elliott C. Flick III
                 I
Pagge 2
September 20, 2012



Wee make two recommenda
               r            ations in this
                                         s report that pertain to re
                                                                   equiring (1) d
                                                                                defined actio
                                                                                            ons
where assessm ments have resulted
                           r         in poor
                                        p     ratings iin the RO orrganization aand (2) the
con
  ndition of ass
               sets informaation be incluuded as an e evaluation faactor for proposed capitaal or
O&
 &M projects where
               w      the co
                           ondition is reelevant.

TVAA managem ment generally agreed wiith our recom
                                                 mmendations and plans to take actio  ons.
Bassed on the in
               nformation we
                          w obtained during this rreview, we p
                                                             plan to do ad
                                                                         dditional worrk
rela
   ated to O&M
             M spending and
                          a systems with poor ra atings.

 ACKGROUN
BA      ND

In 2010,
   2       TVA conducted
                c          a benchmark study that fo    ound as of 22008, TVA had an aging
gen            et that was on average 36
   nerating flee                         3 years old.. This includ  des fossil un
                                                                                nits with an
aveerage age off 47 years. Of                          participated in the benchmark, TVA ffell
                             O the ten uttilities that p
into
   o the bottomm quartile with respect to the age of i ts assets. A As of Septemmber 30, 201 11,
TVAA’s complete  ed plant ass
                            sets for NPGG, FPG, Enerrgy Deliveryy, and RO tottaled more tthan
$211 billion. Fig
                gure 1 shows s total assett investment , which is O& &M expense e as well as
cappital spendinng and the operations po ortion of dep preciation an
                                                                   nd amortizatiion for 2007
   ough 2011.3
thro

              Figure 1: Asse
                           et Investme
                                     ent and Dep preciation a
                                                            and Amortizzation
                                   (Do
                                     ollars in Milllions)




3
    The
    T information regarding pla
                              ant assets, asset investment, and depreciatiion and amortizzation was provided
    by TVA and wa
                as not reviewed
                              d as part of this
                                              s project.
Leslie C. Bazzoon
Elliott C. Flick III
Page 3
September 20, 2012



While TVA does not have any Winning Performance (WP)4 goals directly related to its
asset condition, there are goals related to Equivalent Forced Outage Rate and Equivalent
Availability Factor, both of which can be impacted by asset condition. Equivalent Forced
Outage Rate is the percentage of generation loss due to forced outages with respect to
total generation capability. Forced outages are unplanned outages caused by equipment
failures or other problems. Equivalent Availability Factor is a ratio of actual available
generation in a given period to maximum availability. Additionally, in 2011, Power System
Operations5 had a WP goal for Load Not Served, which is a measure expressed in system
minutes of the magnitude and duration of transmission system outages that affect TVA
customers. Poor asset condition could cause performance to drop in one or all of these
goals.

Asset condition poses a risk for the electric generation and distribution organizations we
evaluated within TVA. Each of the organizations identified at least one risk that related to
the condition of its assets in risk maps6 for the second quarter of fiscal year 2012. As
shown in Figure 2 below, three of the four organizations had determined the probability of
an asset condition issue was “very likely.”

              Figure 2: Organizational Risks Related to the Condition of Assets

    Organization                 Risk                       Probability                   Consequences
                       Long Term Equipment
        NPG                 Reliability
                                                             Very Likely                         Major

                        Asset Performance
        FPG7            Vulnerability – Coal
                                                             Very Likely                       Moderate

                         Asset Performance
        FPG              Vulnerability – Gas
                                                             Even Odds                         Moderate

      Energy           Significant Equipment
                                                             Very Likely                       Moderate
      Delivery                 Failure
                        Material Condition of
         RO             Select Hydro Plants
                                                             Even Odds                         Moderate


OBJECTIVE, SCOPE, AND METHODOLOGY

With the age of TVA generating assets, it is important that TVA understands the condition
of those assets and use that information to plan effectively. As a result, we initiated a
review to determine how TVA (1) assesses the condition of electric assets and (2) uses
that information in planning.


4
     WP is the program in which TVA ties incentive compensation to achievement of goals.
5
     Power System Operations was incorporated into a new group, Energy Delivery, in early 2012.
6
     The risk maps visually represent the probability and consequences associated with the risks identified by
     the organization. In addition, the organizations identify possible mitigations that may reduce the probability
     and consequences associated with the risk.
7
     During our review, FPG and RO were integrated into a new organization, Generation. However, for the
     purposes of this review, FPG and RO were treated as separate organizations.
Leslie C. Bazzoon
Elliott C. Flick III
Page 4
September 20, 2012



This review focused on TVA’s electric generation and distribution assets. Therefore, the
organizations we reviewed were NPG, FPG, Energy Delivery, and RO. To achieve our
objectives, we:

    Interviewed key TVA personnel and reviewed the organizations’ processes to
     determine how the organizations assess the condition of their assets.
    Reviewed examples of assessments from each organization.
    Interviewed TVA management and reviewed business planning processes and
     business plans to determine how the condition of assets is used in planning.

This review was conducted in accordance with the Quality Standards for Inspections.

FINDINGS AND RECOMMENDATIONS

Our review found the condition of assets is identified through system, program, and
component health assessments. While all the organizations we reviewed use health
assessments, the process varies among the organizations. According to processes and
interviews, all of the organizations we reviewed use asset condition information to identify
corrective actions when necessary. RO personnel stated that they take actions to address
any system with poor ratings even though the RO process, RO-SPP-09.21, System and
Component Health Program, does not specifically include the requirement, as the other
organizations do. The condition of assets information is also used by (1) the organizations
to develop and prioritize projects for business planning purposes and (2) System Planning8
for future costs. In addition, TVA has instituted a Capital Productivity Initiative to improve
management of capital and O&M projects to capture savings. As part of the initiative, a
new Project Review Board will be reviewing projects, and the condition of assets
information could be a factor for consideration in its project reviews.

Health Assessments Are a Method Used to Determine the Condition of Assets
System, program, and component health assessments provide a method to improve and
maintain equipment performance. All of the organizations we reviewed use system and/or
component health assessment as a method to evaluate the condition of their assets. NPG
and FPG also use program health to assess their assets. While health assessments are
used by all the organizations we reviewed, the process for the assessments varies among
the organizations.

NPG and FPG management stated health assessments have been in place in these
organizations for a number of years. However, FPG has just started working toward
implementing health assessments at gas plants in the last year.9 According to
management, Energy Delivery initiated its current system health reporting two years ago.
According to RO management, in the past, RO assessed 12 systems annually; however,

8
    System Planning develops plans for the optimized operation of generating assets including long-term asset
    expansions and retirements, current and future capacity and resource requirements, and strategic
    alignment of transmission infrastructure to support resource and load requirements.
9
    For the purposes of this report, information discussing FPG applies only to coal plants and not to gas
    plants because FPG has not fully implemented the health assessments at gas plants.
Leslie C. Bazzoon
Elliott C. Flick III
Page 5
September 20, 2012



they are working toward developing standards10 and completing assessments of all their
systems and components by the end of fiscal year 2012. RO expects to have
approximately 30 systems and components to assess.

Each of the four organizations uses a different software package to maintain its health
assessments. In 2008, NPG adopted Web-based software that was described as easy to
use and accessible through NPG’s Web site. FPG has a proposed plan to enhance the
efficiency of its health assessments by utilizing the tools available in its current software
and integrating it with other programs it uses. Energy Delivery stores its system health
information on a Web page. RO uses an in-house developed equipment condition
assessment program to maintain its health assessments that can be accessed through a
Web site.

According to processes, the time frames for completing the health assessments are also
different for NPG, FPG, and Energy Delivery. NPG assesses each system’s health three
times a year and each component’s and program’s health are assessed semiannually.
FPG performs system health assessments annually or biannually depending on the
system. Program health assessments are completed semiannually for each component,
and component health assessments are done on an as-needed basis. Energy Delivery’s
system health reviews are performed on a monthly basis for each transmission service
center. Energy Delivery management also stated additional reviews are performed for
transformers due to the high cost of those assets. While RO’s process does not address
the time frame, RO management has stated they plan to assess their systems and
components on an annual basis but do not yet have all of their standards in place. The
assessment types and annual frequency are shown in Figure 3 below.

                  Figure 3: Annual Assessment Frequency by Organization

 Organization           Program Health                 System Health                Component Health
     Energy
                          Not performed                       1211                      Not performed
     Delivery
        FPG                      2                             112                        As needed

        NPG                      2                              3                              2

        RO13              Not performed                         1                              1




10
     Standards are engineering guidelines developed to provide all necessary inspection guidelines to perform
     a system and component assessment.
11
     Additional assessments are performed for transformers on a periodic basis.
12
     The majority of FPG systems are assessed on an annual basis; however, some are assessed on a
     biannual basis.
13
     The assessment frequency is planned according to RO management.
Leslie C. Bazzoon
Elliott C. Flick III
Page 6
September 20, 2012



The documented processes related to conducting the health assessments varied in detail
among the organizations. NPG and FPG have detailed processes for their system health
reviews. However, NPG’s system health process also covers component and program
health, while FPG has separate processes for each of those areas. The RO process
covers both system and components; however, it is less descriptive than NPG and FPG
processes. While Energy Delivery does not have a specific system health process, a brief
description is included in an asset management process, which is still in draft. Prior to the
development of the asset management process, system health details were described in a
document that explained System Engineer responsibilities in relation to system health.
According to Energy Delivery management, while there is not yet a documented process,
the process is being performed.

The assessment types and governing processes are shown in Figure 4 below.

                    Figure 4: Process Information by Organization

 Organization      Program Health             System Health            Component Health

   Energy                                  Included in a draft asset
                       Not performed                                       Not performed
   Delivery                                 management process

     FPG          Has its own process       Has its own process         Has its own process

                     One process for                                       One process for
                                          One process for program,
     NPG          program, system, and
                                           system, and component
                                                                        program, system, and
                       component                                             component
                                           One process for system      One process for system
      RO               Not performed
                                              and component                and component

NPG has also incorporated System Vulnerability Reviews in addition to the component,
system, and program health assessments. A System Vulnerability Review is an in-depth,
detailed review of a system that begins with the original design of the system. The
System Vulnerability Review is designed to identify conditions that have the potential to
cause plant issues.

The Condition of Assets Is Used for Business and System Planning
According to processes and interviews, the organizations we evaluated use asset condition
information to identify corrective actions when necessary. The information is also used for
business planning for each of the organizations and system planning for TVA as a whole.
In addition, TVA has instituted a Capital Productivity Initiative to improve management of
capital and O&M projects to capture savings. As part of the initiative, a new Project Review
Board will be reviewing projects, and the condition of assets information could be a factor
for consideration in its project reviews.

According to processes and interviews, all of the organizations we reviewed are using
asset condition information to identify corrective actions when necessary. As part of the
health assessments, systems and components in NPG, FPG, and RO are assigned a
rating. Additionally, programs in NPG and FPG are assigned a rating. NPG’s process
Leslie C. Bazzoon
Elliott C. Flick III
Page 7
September 20, 2012



requires the initiation of an action plan for any system, component, or program that has
been assigned a yellow or red rating.14 While FPG’s processes for systems and programs
require corrective actions for ratings that are yellow or red, they do not require ratings for
component health assessments. While Energy Delivery does not use a rating as part of
system health, its draft process requires that issues having the potential to impact the
customer or transmission system operation or pose a safety or environmental risk be
added to the TOM (Transmission Operations and Maintenance) Watch List.15 While the
RO process, RO-SPP-09.21, System and Component Health Program, does not define
any requirements for assessments with poor ratings, the process does state Plant
Management can decide ownership and resolution of issues. However, according to RO
management, when there are issues with a system or component, a maintenance order is
entered or a project to address the issue is initiated.

The condition of assets is also included in each of the organizations’ business planning
process. Through discussions with each of the organizations’ management, we found the
condition of assets information is used to develop and prioritize projects for business
planning purposes. Additionally, both FPG and RO specifically state in their business
planning processes that the condition of assets should be reviewed to assist with
identifying gaps in performance. The condition of assets is also considered in TVA’s
system planning. According to the Vice President, System Planning, the condition of
assets information is considered for cost purposes when making decisions about future
generation, including plant retirement.

TVA has implemented a Capital Productivity Initiative to improve management of capital
and O&M projects to capture savings. One focus area of this initiative is selecting and
doing the right projects. According to the Director, Capital Productivity and Economic
Analysis, the economic analysis performed by a new Project Review Board could consider
the condition of assets information depending on the proposed project.

Recommendations
We recommend the:

     Vice President, Generation Engineering, consider revising RO-SPP-09.21, System
      and Component Health Program, to require an action when a health assessment has
      resulted in a poor rating. This would be in line with processes in the other
      organizations we reviewed.

      TVA Management’s Comments – In response to our recommendation, the Vice
      President, Generation Engineering, provided informal comments stating they agreed
      with the recommendation for RO-SPP-09.21 procedure to be updated to clarify the
      expectation that an action item be put in place to track correction of systems with


14
     A yellow rating is defined by FPG as “needs improvement” and NPG as “not acceptable.” FPG defines a
     red rating as “unsatisfactory,” and NPG defines it as “intolerable.”
15
     The TOM Watch List is a listing of issues identified by each Transmission Service Center that (1) has the
     potential to impact the ability to serve the customer or operate the transmission system; (2) requires a long-
     term solution, such as a capital project; or (3) is considered a safety or environmental risk.
Lesslie C. Bazzo oon
Elliott C. Flick III
                 I
Pagge 8
September 20, 2012



    improveme ent needs. They
                           T     are currrently in the process of rrevising the procedure a
                                                                                          and
    the action is being tracked in the co
                                        orrective acttion processs.

    Auditor’s Response
              R        – The OIG co
                                  oncurs with planned acttions.

   Director, Caapital Productivity and Economic
                                        E        An
                                                  nalysis, conssider requirin
                                                                            ng the condiition
    of assets in
               nformation be included asa an evalua
                                                  ation factor fo
                                                                or projects w
                                                                            where the
    condition is
               s relevant.

    TVA Management’s Comments
                            C             – In respons e to our reco ommendatio on, TVA stateed
    that as partt of the econnomic review ws on capitall projects greeater than $8 million and
                                                                                             d
    O&M projec  cts greater than $3 millio on, they incl ude any impprovements to material
    condition made
               m       by the project in the
                                           e benefit an alysis. Theyy will work to
                                                                                 oward makin ng
    sure that in
               nformation is s included in the package  es brought fforward to th
                                                                                he Project
    Review Boa  ard.

    Auditor’s Response
              R        – The OIG co
                                  oncurs with planned acttions.

                        -       -       -       -        -      -

Ple
  ease notify us within one
                          e year from the date of thhis memoran   ndum when final action is
com
  mplete. Infoormation conntained in this report mayy be subjectt to public dissclosure. Pllease
adv           ny sensitive information in this reporrt that you re
  vise us of an                                                  ecommend b  be withheld.

If you
   y have any   y questions or
                            o wish to discuss our o bservations,, please con
                                                                           ntact Deana D.
Sco                         a (423) 785-4822 or Gre
    oggins, Senior Auditor, at                                 on, Director, Evaluationss, at
                                                    eg R. Stinso
(8665) 633-7367 7. We appre             ourtesy and cooperation received fro
                            eciate the co                                  om your stafff
durring the insp
               pection.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

DD
 DS:FAJ
cc: Micheal B. Fussell, WT T 9B-K                      hard W. Moo
                                                    Rich            ore, ET 4C-K
                                                                               K
    Kimberly S.
              S Greene, WT
                         W 7C-K                     And a A. Ray, LP P 3K-C
    Peyton T. Hairston, Jrr., WT 7B-K               Emi ly J. Reynolds, OCP 1L--NST
    Joseph J. Hoagland, WTW 7B-K                    Presston D. Swafford, LP 3RR-C
    Robert Irvin, WT 9C-KK                          Robbert B. Wellss, WT 9B-K
    Tom Kilgore, WT 7B-K K                            G File No. 2009-12883
                                                    OIG
    Robin E. Manning,
             M         MRR 3H-C
APPENDIX
Page 1 of 1
